TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  The Account Management Services Project
                      Is Meeting Its Development Goals



                                          March 3, 2008

                              Reference Number: 2008-20-053




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                   DEPARTMENT OF THE TREASURY
                                                         WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                   March 3, 2008


 MEMORANDUM FOR CHIEF INFORMATION OFFICER

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – The Account Management Services Project Is
                                 Meeting Its Development Goals (Audit # 200720004)

 This report presents the results of our review of the development of the Accounts Management
 Services (AMS) project. The overall objective of this review was to determine whether AMS
 project management and development activities are effective in providing a sound basis for the
 delivery and deployment of AMS releases.1 This review was part of our Fiscal Year 2007 audit
 plan for reviews of the Internal Revenue Service (IRS) Business Systems Modernization efforts.

 Impact on the Taxpayer
 The IRS is continuing to modernize its databases to provide immediate access to account data,
 enable real-time transaction processing, and ensure daily account settlement to improve customer
 service and business results. The AMS project was initiated in May 2006 and has been chartered
 to address these needs. The objective of the AMS project is to provide an integrated approach to
 view, access, update, and manage taxpayer accounts by providing IRS employees with the tools
 to access information quickly and accurately in response to complex customer inquiries and to
 update taxpayer accounts on demand.

 Synopsis
 Reviews of the initial AMS releases showed the project team successfully implemented
 Enterprise Life Cycle2 and Modernization and Information Technology Services organization
 project management processes and activities. These processes and activities included project

 1
     See Appendix V for a Glossary of Terms.
 2
     Appendix IV provides an overview of the Enterprise Life Cycle process.
                             The Account Management Services Project
                                 Is Meeting Its Development Goals



justification, contract management, risk management, configuration management, performance
management, and transition management.
The AMS Project Management Plan defines the project, the scope of work to be performed, and
the planned methodology for managing project activities. The Plan also identifies the
capabilities that Release 1 must implement for it to be considered complete. The AMS project
team successfully planned work schedules, identified and addressed potential risks to project
development, and coordinated with appropriate staff to implement initial release capabilities.
Although the AMS project team is on schedule to make the proposed processing capabilities
available, its implementation is dependent on the Modernization and Information Technology
Services organization’s abilities to integrate these project capabilities into taxpayer account
processing.

Response
The Chief Information Officer appreciated the comments and observations acknowledging the
successful implementation of the Enterprise Life Cycle and the Modernization and Information
Technology Services organization project management processes for AMS Release 1.
Management’s complete response to the draft report is included as Appendix VI.
Copies of this report are also being sent to the IRS managers affected by the report findings.
Please contact me at (202) 622-6510 if you have questions or Margaret E. Begg, Assistant
Inspector General for Audit (Information Systems Programs), at (202) 622-8510.




                                                                                                  2
                                       The Account Management Services Project
                                            Is Meeting Its Development Goals




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Initial Releases of the Account Management Services Project Have
          Adequately Incorporated Prescribed Project Management Processes ..........Page 3
          The Account Management Services Project Is on Schedule to Deliver
          Essential Release Components and Support the Customer Account
          Data Engine Capabilities...............................................................................Page 6

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 10
          Appendix II – Major Contributors to This Report ........................................Page 12
          Appendix III – Report Distribution List .......................................................Page 13
          Appendix IV – Enterprise Life Cycle Overview ..........................................Page 14
          Appendix V – Glossary of Terms .................................................................Page 18
          Appendix VI – Management’s Response to the Draft Report ......................Page 20
       The Account Management Services Project
            Is Meeting Its Development Goals




             Abbreviations

AMS    Account Management Services
CADE   Customer Account Data Engine
IRS    Internal Revenue Service
                                   The Account Management Services Project
                                        Is Meeting Its Development Goals




                                              Background

In the Internal Revenue Service’s (IRS) present environment, taxpayers and practitioners do not
always receive timely and accurate responses to requests and inquiries. IRS employees assigned
to resolve taxpayer and practitioner requests and inquiries work with dated technologies and
business processes that impede productivity and access to comprehensive, timely information.
IRS employees rely on data residing on the Master File,1 which is updated weekly. The
Integrated Data Retrieval System provides IRS employees data entry and retrieval access to
taxpayer accounts on the Master File. These actions are
accomplished by using computer codes rather than
commonly- used English terms. The absence of                    IRS employees must execute a
familiarity with the various computer codes often results          series of applications to
                                                                  research issues and send
in employee errors. Because of this complex and                transactions to update taxpayer
extended data retrieval and update process, IRS                  accounts on the Master File.
employees’ workloads increase due to repeat callers,
duplicate correspondence, and erroneous notices sent to
customers.
In Calendar Year 2006, the IRS Information Technology Modernization Vision and Strategy
effort revalidated the need for modernized tax administration capabilities. The IRS is continuing
to modernize its databases to provide immediate access to account data, enable real-time
transaction processing, and ensure daily account settlement to improve customer service and
business results. Realization of these capabilities requires the implementation of tools that allow
for the retention of taxpayer accounts in the modernized Customer Account Data Engine
(CADE) database through online access, monitoring, and adjustment.
The Account Management Services (AMS) project was initiated in May 2006 and has been
chartered to address these needs. The objective of the AMS project is to provide an integrated
approach to view, access, update, and manage taxpayer accounts by providing IRS employees
with the tools to access information quickly and accurately in response to complex customer
inquiries and to update taxpayer accounts on demand.
The AMS release management plan proposes a sequence of four releases that use a biannual
release approach paralleling the CADE delivery schedule.




1
    See Appendix V for a Glossary of Terms.
                                                                                            Page 1
                                   The Account Management Services Project
                                        Is Meeting Its Development Goals



      •    AMS Release 1, with deployment plans for subreleases
           Release 1.1 in September 2007,2 Release 1.2A and Release             The Corporate Notices
           1.2B in January 2008, and Release 1.3 in October 2008, will          project plans to enable
           deliver the underlying infrastructure for the succeeding AMS        the CADE to support and
           releases.                                                               manage taxpayer
                                                                                 accounts that require
           On May 16, 2007, funding for Release 1.2B of the AMS                  generation of notices.
           (currently scheduled for delivery in January 2008) was
           transferred to the control of the Corporate Notices project.
           The commercial off-the-shelf product, xPression, will manage the business rules for
           notice composition and compose the notices. Release 1.2B will provide data processing
           from xPression enabling the CADE to retain accounts when a tax return requires one of
           eight selected notices, including four math error notices and four information notices.
      •    AMS Release 2, consisting of two subreleases (July 2009 and January 2010), will
           complete the application development to enable future AMS releases to perform online
           transactions using the CADE.
      •    AMS Releases 3 and 4 will work in conjunction with the CADE to retire the IRS’
           existing Master File processing systems, including the Integrated Data Retrieval System.
This review was performed at the Modernization and Information Technology Services
organization’s facilities in New Carrollton, Maryland, and in the Treasury Inspector General for
Tax Administration office in Laguna Niguel, California, during the period August through
November 2007. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. This review was
part of the Treasury Inspector General for Tax Administration Fiscal Year 2007 Annual Audit
Plan coverage under the major management challenge of Modernization of the IRS. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




2
    AMS Release 1.1 received authorization to operate on September 28, 2007.
                                                                                               Page 2
                                    The Account Management Services Project
                                         Is Meeting Its Development Goals




                                        Results of Review

The Initial Releases of the Account Management Services Project
Have Adequately Incorporated Prescribed Project Management
Processes
The Enterprise Life Cycle3 is the IRS’ standard approach to implement business change and
information systems projects. It provides robust and diverse techniques for managing projects
that equip project teams to deliver a quality product. This guidance enhances requirement
gathering, design, and development procedures. The Enterprise Life Cycle also provides
directives and processes to define project management work products and activities. Reviews of
AMS Releases 1.1, 1.2A, and 1.2B showed the project team successfully implemented Enterprise
Life Cycle and Modernization and Information Technology Services organization project
management processes and activities. These processes and activities included project
justification, contract management, risk management, configuration management, performance
management, and transition management.

The AMS project team adequately justified the need for the project, managed
contracts, and reported contract costs
The AMS project team adequately developed and managed plans to design, develop, and execute
the project. These plans included adequate descriptions of project goals and processes, as well as
budgetary justification. This support was presented in the September 10, 2007, submission of
the Exhibit 300 - Capital Asset Plan and Business Case Summary, which is in compliance with
Office of Management and Budget requirements outlined in Circular Number A-11, Preparation,
Submission, and Execution of the Budget.
The AMS project team and project stakeholders adequately managed contracts, task orders, work
requests, and memorandums of agreements to execute the project’s design and development.
The assignment of responsibilities and deliverables associated with AMS project activities was
properly documented. Contract management and the reporting of contracting costs were
adequate. AMS project costs reported in management reviews were consistent with budgeted
figures provided to the Office of Management and Budget in the Exhibit 300.
In Fiscal Years 2006 and 2007, the AMS project obtained funds for development activities from
both the Business Systems Modernization Management Reserve and the Information Systems’
Operations and Support budget as shown in Figure 1.

3
    Appendix IV provides an overview of the Enterprise Life Cycle process.
                                                                                           Page 3
                              The Account Management Services Project
                                   Is Meeting Its Development Goals



              Figure 1: Account Management Services Project Funding
                                     Fiscal Year           Fiscal Year
           Funding Source                2006                  2007                Totals
                                     (in millions)         (in millions)        (in millions)
            Business Systems              $7.5                $19.45                $26.95
            Modernization
            Management
            Reserve
            Information                   $4.3                  $1.57                $5.87
            Systems’
            Operations and
            Support
            Totals                       $11.8                $21.02                $32.82
       Source: AMS Exhibit 300 - Capital Asset Plan and Business Case Summary submitted
       September 10, 2007, and AMS Project Management Plan dated September 11, 2006.

The AMS project team generally meets weekly to identify, discuss, and resolve
risks and issues affecting project management and development
Modernization program management, stakeholders, and executive-level decision makers have a
systematic and repeatable process for identifying, managing, and regularly communicating the
status of risks, issues, and action items. The application of a common process by all
organizations ensures that risks, issues, and action items are identified early; collateral impacts
are recognized across projects; appropriate management strategies are developed; and risks,
issues, and action items are escalated to the management levels necessary to resolve them on
time.
As part of their weekly meetings, the AMS project team adequately identifies risks, issues, and
action items and documents them on the Item Tracking Reporting and Control system. The
documentation identifies the risk or issue, as well as the party responsible for developing the
resolution. For example, the AMS project team identified the ability to appropriately and
sufficiently staff project design and development efforts as a risk to the project’s success.
Subsequently, the project team took appropriate actions to staff the project. The AMS
Release 1.1 and Release 1.2A integrated project schedule showed all tasks were assigned to
project members.

The AMS project team took appropriate actions to manage its requirements
Requirements management is the process that controls and documents all project requirements
for the duration of a project. It involves establishing the requirements, controlling all subsequent

                                                                                                Page 4
                                    The Account Management Services Project
                                         Is Meeting Its Development Goals



requirements changes, and establishing and maintaining agreement among the customers and
those who provide the requested products or services. Requirements management ensures
requirements are clear, traceable, verifiable, documented, and controlled.
The requirements management process requires the development of a business systems
requirements report that documents a set of requirements that define the system being developed
or enhanced by the project. These requirements form the basis for the business solution design,
development, integration, testing, and deployment.
In addition, the requirements management process requires the                            The AMS project team
development of a requirements traceability matrix, which is a report                      followed prescribed
that documents traceability relationships between requirements, rules,                        requirements
and associated work products and assists in identifying areas of                              management
suspect traceability. The requirements traceability matrix is needed                        processes. The
                                                                                           processes include
to conduct impact assessments of requirements changes and supports                        development of the
requirements verification.                                                                 business systems
                                                                                          requirements report
The Release 1.1, Release 1.2A, and Release 1.2B4 business systems                          and requirements
requirements reports adequately document requirements as prescribed                      traceability matrices.
by the Enterprise Life Cycle guidance. Further, the Release 1.1 and
Release 1.2A requirements traceability matrix provide bi-directional
traceability of the requirements. The Release 1.2B requirements traceability matrix is currently
being developed.

The AMS project team took appropriate actions to plan configuration
management activities
Configuration management is the process used to identify and control items such as project
requirements and deliverables. Setup and maintenance of various repositories are necessary to
effectively support the AMS project. The AMS project configuration management plan assigns
responsibility for setup and maintenance of repositories for project deliverables and also
establishes a process to initiate and approve project change requests.

The AMS project team took appropriate actions to monitor project schedule, cost,
and quality performance
The AMS project uses the Management Information Center Schedule Analysis Workbook to
monitor and report schedule performance against baselines. For cost performance, the project
team tracks planned and actual expenses by release and milestone. The project team also tracks
requests and obligations weekly using the web-based Request Tracking System and Integrated



4
    The AMS project had responsibility for the development of the Release 1.2B business systems requirements report.
                                                                                                            Page 5
                            The Account Management Services Project
                                 Is Meeting Its Development Goals



Financial System. These processes allow the project team to adequately monitor, track, and
report project schedule and cost performance.
A Quality Management Plan, issued on September 17, 2007, established the goals, resources, and
activities to assure the quality of AMS project work products and processes. The Program and
Project Operations office performed work product reviews as prescribed by the Quality
Management Plan. The Applications Development Quality Assurance organization is in the
process of scheduling a compliance audit for the AMS project.

The AMS project team took appropriate actions to plan for managing transition
risks and issues
Transition management is defined as the management of activities associated with the smooth
transfer of modernized business capabilities, including business processes and systems, from the
developer to the receiving organization. Transition management activities prepare the receiving
organization to use, operate, and maintain modernized systems. This includes helping the
receiving organization understand the new system and the implications on the receiving
organization’s work and helping it address those implications. The AMS transition management
plan was issued on June 29, 2007, and provides appropriate steps for project implementation,
operation, and maintenance.
Because the AMS project team adequately followed project management guidance established
by the Enterprise Life Cycle, work products and deliverables have met or are on schedule to
meet project goals. This has been exemplified by the timely delivery of AMS Release 1.1.

The Account Management Services Project Is on Schedule to Deliver
Essential Release Components and Support the Customer Account
Data Engine Capabilities
The AMS Project Management Plan defines the project, the scope of work to be performed, and
the planned methodology for managing project activities. The Plan also identifies the
capabilities that Release 1 must implement for it to be considered complete. The AMS project
team successfully planned work schedules, identified and addressed potential risks to project
development, and coordinated with appropriate staff to implement the required Release 1.1
capabilities. Using these same controls and tools, Release 1.2A is on schedule for timely
delivery of planned capabilities. Although the AMS project team is on schedule to make the
proposed processing capabilities available, its implementation depends on the Modernization and
Information Technology Services organization’s abilities to integrate these project capabilities
into taxpayer account processing.




                                                                                          Page 6
                            The Account Management Services Project
                                 Is Meeting Its Development Goals



The AMS project team participated in and benefited from several coordinated
efforts to help ensure successful project development
In August 2006, the IRS created guidelines for the establishment and operation of the
AMS/CADE Integration Review Team. The Team generally meets monthly to provide multiple
programs with the support needed to resolve issues in a timely manner relating to business
requirements and application design and development. The Team consists of executives,
managers, and specialists from the AMS, CADE, and Corporate Notices projects; the Wage and
Investment Division; the Enterprise Architecture and Systems Architecture and Engineering
organizations; and the Business Rules and Requirements Management Office. A review of the
AMS/CADE Integration Review Team meeting minutes shows the Team has effectively
performed its duties to provide integrated program-level support to resolve technical and
business integration issues. The support includes the following:
   •   Risks and issues identified by the AMS/CADE Integration Review Team are controlled
       on the Item Tracking Reporting and Control system. The Team initiates action items to
       address each risk or issue until closure and develops worksheets, including an Issue
       Statement and Issue Impact, for concerns affecting the AMS and CADE projects.
   •   Members from the AMS/CADE Integration Review Team participated in a series of
       AMS/CADE technical workshops initiated on July 10, 2007, under the direction of the
       IRS Enterprise Architecture organization. The primary goal of these workshops was to
       obtain a common understanding of the current and emerging capabilities and interactions
       of the AMS, the CADE, and the legacy systems. The workshops identified and framed
       issues, developed an approach that provides a 5-year view of the future capabilities and
       interactions, and supported incremental steps planned for the 5-year time period
       (e.g., AMS Release 2.1/CADE Release 5.1). The workshops also drew on the broad
       cross section of experience and perspective of the participants to accomplish stated goals
       and objectives.
The AMS and CADE project teams coordinated testing efforts to ensure planned integrated
application capabilities were accomplished and to achieve efficiency in testing processes. The
Testing, Assessment, and Documentation group properly scheduled, prioritized, and performed
Systems Acceptability Testing for AMS Release 1.1 and CADE Release 3.1. The items tested
and the test results were communicated in a timely manner to both the AMS and CADE project
teams.
In addition, the AMS and CADE project teams considered the feasibility of their scheduled
release deployment plans. Subsequently, Business Systems Modernization program members
and IRS business owners successfully collaborated and delivered a coordinated AMS/CADE
release strategy. In June 2007, the Customer Service Executive Steering Committee approved a
revised AMS/CADE Release Content Master Plan linking AMS and CADE deliverables through
Calendar Year 2012.

                                                                                           Page 7
                             The Account Management Services Project
                                  Is Meeting Its Development Goals



The AMS project team delivered capabilities for the CADE to electronically update
taxpayer accounts
The AMS project team completed Release 1.1 deliverables and work products as described in the
Enterprise Life Cycle (including the logical and physical designs). The project team received a
timely Milestone 4A exit approval from the Customer Service Executive Steering Committee on
May 3, 2007, and subsequently performed system development work.
AMS Release 1.1, which began operating on October 1, 2007, uses the Enterprise Application
Integration Broker infrastructure to provide a foundation for future AMS releases. The
Enterprise Application Integration Broker sends address change transactions to the CADE.
On October 1, 2007, the AMS pilot successfully processed the
first transactions updating taxpayer accounts through the CADE
and the Integrated Data Retrieval System using the Enterprise              The Enterprise
Application Integration Broker. With the addition of this              Application Integration
                                                                        Broker infrastructure
capability, the number of accounts retained in the CADE will            uses webMethods, a
increase over time while the number of accounts returned to the       commercial off-the-shelf
current processing environment will decrease.                         product, to provide data
                                                                       processing capabilities
The AMS project team also completed the Release 1.2A                    between the AMS, the
deliverables and work products as required by the Enterprise Life      CADE, and the current
Cycle (including the logical and physical designs), and received a    processing environment
timely Milestone 4A exit approval from the Customer Service                  systems.
Executive Steering Committee on July 24, 2007. The project
team is currently performing system development work.
AMS Release 1.2A, scheduled for delivery in January 2008, will provide IRS employees the
opportunity to electronically access transcripts of taxpayer account activity. Currently, paper
transcripts are printed onsite and manually distributed to IRS employees for action. Once the
IRS employees are assigned the electronic transcripts, they will be able to view and manage their
workload inventory, request assistance, and resolve certain taxpayer issues through Desktop
Integration.
The benefits expected from this release include:
   •   Reduced paper and printing costs realized by converting paper transcripts to electronic
       transcripts.
   •   Reduced transcript handling time realized by eliminating paper handling, manual work
       assignment, and tracking.
   •   Enhanced workflow with the implementation of an inventory management and tracking
       system.


                                                                                          Page 8
                            The Account Management Services Project
                                 Is Meeting Its Development Goals



   •   Implementation of an inventory management framework that supports workflow
       management for future AMS inventories.
As of October 25, 2007, the AMS Project Director stated Release 1.2A was on schedule for a
timely delivery in January 2008. The Modernization and Information Technology Services
organization governance bodies (Customer Service Executive Steering Committee and the
Information Technology Project Control Review board) supported this assessment through their
regular review processes.
By effectively coordinating development efforts with all appropriate stakeholders, following
Enterprise Life Cycle guidelines, and executing the project management plan, the AMS project
team delivered planned capabilities and provided support for the CADE to electronically update
taxpayer accounts.
Overall, the AMS project’s success to date can be attributed to the efforts of the AMS project
team following Enterprise Life Cycle guidelines, developing required deliverables and work
products, and completing the detailed project release designs on time. Another factor is the
project team’s formulation of a manageable scope and realistic completion dates for each release.
The ability to secure sufficient funding for each release ensured the availability of adequate
staffing. Finally, the project team actively used the Item Tracking Reporting and Control system
to document and resolve risks and issues identified as having the potential to negatively affect
the project’s schedule.




                                                                                          Page 9
                                    The Account Management Services Project
                                         Is Meeting Its Development Goals



                                                                                       Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether AMS project management and
development activities are effective in providing a sound basis for the delivery and deployment
of AMS releases.1 This review was part of our Fiscal Year 2007 audit plan for reviews of the
IRS Business Systems Modernization efforts.
To accomplish our objective, we identified the internal control systems used as guidance for the
AMS project’s development in the Enterprise Life Cycle.2 We assessed the adequacy of the
project team’s development activities in relation to this guidance. We also assessed the
adequacy of the AMS project’s development and program plans by reviewing Business Systems
Modernization Program project documentation and data provided by the IRS. Further, we
conducted interviews of personnel in the Applications Development and Enterprise Services
organizations. To accomplish the objective, we:
I.         Assessed the AMS project team’s efforts to implement and use foundational project
           management processes and activities.
           A. Determined the adequacy of the project team’s contracting activities.
           B. Assessed efforts to adequately staff the project to accomplish required AMS
              activities.
           C. Determined the adequacy of requirements management activities for the AMS
              project.
           D. Determined the adequacy of configuration management activities for the AMS
              project.
           E. Determined the adequacy of the project team’s efforts to manage project quality,
              track performance, and report activities.
           F. Determined the adequacy of the project team’s efforts to manage risks.
II.        Assessed the AMS project team’s efforts to ensure the timely delivery of essential AMS
           release components to support the CADE address change and notice issuance capabilities.
III.       Assessed the AMS project team’s efforts to deliver capabilities for the CADE to
           electronically update taxpayer accounts.


1
    See Appendix V for a Glossary of Terms.
2
    Appendix IV presents an overview of the Enterprise Life Cycle.
                                                                                             Page 10
                     The Account Management Services Project
                          Is Meeting Its Development Goals



A. Determined the ability of the Enterprise Architecture Integration Broker infrastructure
   to provide effective data processing between the AMS, the CADE, and the current
   processing environment systems.
B. Determined the ability of the Enterprise Architecture Integration Broker service to
   effectively update taxpayer addresses between the CADE and the current processing
   environment.
C. Determined whether the initial Documentum framework for document management
   (an inventory component) will be in place to support future release image storage and
   image retrieval.
D. Determined whether the AMS, using the commercial off-the-shelf product xPression,
   will enable the CADE to support and manage taxpayer accounts requiring generation
   of notices.




                                                                                  Page 11
                           The Account Management Services Project
                                Is Meeting Its Development Goals



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Gary V. Hinkle, Director
Edward A. Neuwirth, Audit Manager
Bruce Polidori, Senior Auditor
Tina Wong, Senior Auditor
Louis V. Zullo, Senior Auditor




                                                                                     Page 12
                          The Account Management Services Project
                               Is Meeting Its Development Goals



                                                                         Appendix III

                        Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Acting Chief of Staff C
Deputy Commissioner for Operations Support OS
Associate Chief Information Officer, Applications Development OS:CIO:AD
Associate Chief Information Officer, Enterprise Services OS:CIO:ES
Deputy Associate Chief Information Officer, Applications Development OS:CIO:AD
Deputy Associate Chief Information Officer, Business Integration OS:CIO:ES:BI
Deputy Associate Chief Information Officer, Systems Integration OS:CIO:ES:SI
Director, Procurement OS:A:P
Director, Stakeholder Management OS:CIO:SM
Director, Test, Assurance, and Documentation OS:CIO:AD:TAD
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Associate Chief Information Officer, Applications Development OS:CIO:AD
       Director, Program Oversight OS:CIO:SM:PO




                                                                                 Page 13
                                   The Account Management Services Project
                                        Is Meeting Its Development Goals



                                                                                     Appendix IV

                         Enterprise Life Cycle Overview

The Enterprise Life Cycle1 is the IRS’ standard approach to business change and information
systems initiatives. It is a collection of program and project management best practices designed
to manage business change in a successful and repeatable manner. The Enterprise Life Cycle
addresses large and small projects developed internally and by contractors.
The Enterprise Life Cycle includes such requirements as:
      •    Development of and conformance to an enterprise architecture.
      •    Improving business processes prior to automation.
      •    Use of prototyping and commercial software, where possible.
      •    Obtaining early benefit by implementing solutions in multiple releases.
      •    Financial justification, budgeting, and reporting of project status.
In addition, the Enterprise Life Cycle improves the IRS’ ability to manage changes to the
enterprise; estimate the cost of changes; and engineer, develop, and maintain systems effectively.
Figure 1 provides an overview of the layers, paths, phases, and milestones (shown as “MS” in
Figure 1) within the Enterprise Life Cycle Framework.




1
    See Appendix V for a Glossary of Terms.
                                                                                          Page 14
                                                               The Account Management Services Project
                                                                    Is Meeting Its Development Goals



                                                     Figure 1: Enterprise Life Cycle Framework
  Governance Management




                                                                                            Acquisition Management
                Layer




                                                                                             Program Management

                                                                                      Implementation Project Management
    Layer




                                                           MS0               MS1                MS2             MS3              MS4A         MS4B                MS5


                          Large Custom Path
                          Small Custom Path
  Solution Life Cycle




                          Commercial-Off-the-
                          Shelf Path             Vision and
                                                 Strategy /                           Domain                                          System           System       Operations and
         Layer




                          Joint Application                         Project                         Preliminary Detailed Design
                                                 Enterprise                         Architecture                                    Development      Deployment      Maintenance
                          Development /                        Initiation Phase                    Design Phase     Phase
                                                Architecture                           Phase                                           Phase           Phase            Phase
                          Rapid Application
                                                   Phase
                          Development Path
                          Iterative Custom
                          Path
  Methodology Solution




                                                Various Work    Various Work       Various Work    Various Work    Various Work     Various Work   Various Work
               Layer




                                                Products and    Products and       Products and    Products and    Products and     Products and   Products and
                                                  Reviews         Reviews            Reviews         Reviews         Reviews          Reviews        Reviews
     Layer




                                                                      Developer's Business Change or System Change Methodology



                                                                                  Enterprise Integration, Test, and Evaluation
  Specialty Areas




                                                                                  Business Rules Harvesting and Management
                                                                                             Transition Management
      Layer




                                                                                             Enterprise Architecture
                                                                                    Capital Planning and Investment Control
                                                                                              Security and Privacy
                                                                                  Requirements Development and Management

Source: Graphical representation of the Enterprise Life Cycle Framework modified from the Enterprise Life Cycle
Guide.

Enterprise Life Cycle Layers
The Enterprise Life Cycle is a framework for organizing and using IRS directives, processes,
procedures, templates, and standards to accomplish business change. It is organized as a set of
six interacting layers.
           •               The Management Layer specifies how to plan and control business change programs,
                           projects, acquisitions, and solutions throughout the Enterprise Life Cycle.
           •               The Governance Layer specifies additional controls imposed from outside the project or
                           program.
           •               The Solution Life Cycle Layer specifies what should be done, but not how to do it.
           •               The Solution Layer manages the solution as it is produced, including providing
                           standards for consistent solution specification and formal review of solution content.
                           This Layer provides control over work products that may be produced by multiple
                           internal and external developers using differing methodologies.

                                                                                                                                                                        Page 15
                              The Account Management Services Project
                                   Is Meeting Its Development Goals



   •   The Methodology Layer details how to do the work and specifies a unique set of work
       products to be produced. Specific methodologies are not part of the Enterprise Life
       Cycle Framework.
   •   The Specialty Areas Layer provides additional guidance for areas of particular
       importance within the IRS. These areas include Enterprise Integration, Test, and
       Evaluation; Business Rules Harvesting and Management; Transition Management;
       Enterprise Architecture; Capital Planning and Investment Control; Security and Privacy;
       and Requirements Development and Management.

Enterprise Life Cycle Paths
A path specifies a unique “philosophy” or orientation for performing the work. Although the
Enterprise Life Cycle specifies a standard for the work required to produce and operate business
change solutions, there are multiple ways to approach and accomplish the required work. Paths
are like alternate roads, each of which crosses different terrain, but all of which lead to the same
destination. The Enterprise Life Cycle provides five distinct paths or approaches to developing
systems:
   •   The Large Custom Path is for large projects.
   •   The Small Custom Path is for small projects.
   •   The Commercial-Off-the-Shelf Path is a commercial software-based approach.
   •   The Joint Application Development/Rapid Application Development Path is a highly
       accelerated, prototyping-based approach for very small, standalone solutions or solution
       components.
   •   The Iterative Custom Path is a hybrid approach that combines elements of the other
       approaches.

Enterprise Life Cycle Phases and Milestones
A phase is a broad segment of work encompassing activities of similar scope, nature, and detail
and providing a natural breakpoint in the life cycle. Each phase begins with a kickoff meeting
and ends with an executive management decision point (called a milestone) at which IRS
executives make “go/no-go” decisions for continuation of a project. Project funding decisions
are often associated with milestones.




                                                                                             Page 16
                            The Account Management Services Project
                                 Is Meeting Its Development Goals



              Figure 2: Enterprise Life Cycle Phases and Milestones
                                                    General Nature                       Concluding
              Phase                                     of Work                           Milestone
 Vision and Strategy/            High-level direction setting. This is the only phase
                                                                                             0
 Enterprise Architecture Phase   for enterprise planning projects.
 Project Initiation Phase        Startup of development projects.                            1
 Domain Architecture Phase       Specification of the operating concept, requirements,
                                                                                             2
                                 and structure of the solution.
 Preliminary Design Phase        Preliminary design of all solution components.              3
 Detailed Design Phase           Detailed design of solution components.                    4A
 System Development Phase        Coding, integration, testing, and certification of
                                                                                            4B
                                 solutions.
 System Deployment Phase         Expanding availability of the solution to all target
                                 users. This is usually the last phase for development       5
                                 projects.
 Operations and Maintenance      Ongoing management of operational systems.               System
 Phase                                                                                   Retirement
Source: The Enterprise Life Cycle Guide.




                                                                                                 Page 17
                             The Account Management Services Project
                                  Is Meeting Its Development Goals



                                                                                  Appendix V

                               Glossary of Terms

            Term                                            Definition
Business Rule                  A statement that defines or constrains some aspect of the business.
Business Rules Harvesting      A general term used to broadly describe the entire set of activities
                               involved in gathering, formalizing, analyzing, and validating
                               business rules for a particular scope.
Customer Account Data          Consists of databases and related applications that will replace the
Engine                         IRS’ official repository of taxpayer information (the Master File)
                               and provide the foundation for managing taxpayer accounts to
                               achieve the IRS modernization vision.
Customer Service Executive     Has the responsibility for ensuring the successful implementation
Steering Committee             and integration of modernization projects and related program
                               activities within its portfolio by overseeing investments, including
                               validating major investment business requirements and ensuring
                               that enabling technologies are defined, developed, and
                               implemented.
Desktop Integration            Provides integrated access to multiple systems using only
                               1 computer terminal and supports over 30,000 end-users.
Enterprise Application         A commercial off-the-shelf solution that will be used to enable the
Integration Broker             communication and data transformations between components of
                               the AMS, the current processing environment, and the CADE.
Enterprise Life Cycle          A structured business systems development method that requires
                               the preparation of specific work products during different phases
                               of the development process.
Information Technology         Establishes a 5-year plan that drives investment decisions;
Modernization Vision and       addresses the priorities around modernizing
Strategy                       front-line tax administration and supporting technical capabilities;
                               and leverages existing systems (where possible) and new
                               development (where necessary) to optimize capacity, manage
                               program costs, and deliver business value on a more incremental
                               and frequent basis.


                                                                                          Page 18
                              The Account Management Services Project
                                   Is Meeting Its Development Goals




              Term                                           Definition
Infrastructure                  The fundamental structure of a system or organization. The basic,
                                fundamental architecture of any system (electronic, mechanical,
                                social, political, etc.) determines how it functions and how flexible
                                it is to meet future requirements.
Integrated Data Retrieval       An IRS mission-critical system consisting of databases and
System                          programs supporting IRS employees working active tax cases. It
                                manages data retrieved from the Master File allowing IRS
                                employees to take specific actions on taxpayer account issues,
                                track status, and post updates back to the Master File.
Integrated Financial System     The IRS’ administrative financial accounting system.
Item Tracking Reporting and     An information system used to track and report on issues, risks,
Control System                  and action items in the modernization effort.
Legacy Systems                  A mainframe or minicomputer information system that has been in
                                existence for a long period of time.

Logical Design                  Describes the functions required of a system; that is, what is to be
                                done, not how it will be done. Logical design is concerned with
                                the processes to be performed.

Master File                     The IRS database that stores various types of taxpayer account
                                information. This database includes individual, business, and
                                employee plans and exempt organizations data.
Physical Design                 Describes how the processing will be performed; for example,
                                whether data are input by a person or read by a barcode reader,
                                whether a file is electronic or print. Tools to represent the
                                physical design include system flowcharts and structure charts.
Release                         A specific edition of software.
Request Tracking System         A web-based application that allows IRS personnel to prepare,
                                approve, fund, and track requests for the delivery of goods and
                                services.
Requirements                    A formalization of a need and the statement of a capability or
                                condition that a system, subsystem, or system component must
                                have or meet to satisfy a contract, standard, or specification.
Task Order                      An order for services planned against an established contract.



                                                                                           Page 19
          The Account Management Services Project
               Is Meeting Its Development Goals



                                               Appendix VI

Management’s Response to the Draft Report




                                                    Page 20
